<html>
<title> - LEGISLATIVE HEARING ON H.R. 4312, H.R. 6409, AND H.R. 6420</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       LEGISLATIVE HEARING ON H.R. 4312, H.R. 6409, AND H.R. 6420

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, SEPTEMBER 5, 2018

                               __________

                           Serial No. 115-75

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                     
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-829                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>                             
                     
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                     MIKE BOST, Illinois, Chairman

MIKE COFFMAN, Colorado               ELIZABETH ESTY, Connecticut, 
AMATA RADEWAGEN, America Samoa           Ranking Member
JACK BERGMAN, Michigan               JULIA BROWNLEY, California
JIM BANKS, Indiana                   CONOR LAMB, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           
                           C O N T E N T S

                              ----------                              

                      Wednesday, September 5, 2018

                                                                   Page

Legislative Hearing On H.R. 4312, H.R. 6409, And H.R. 6420.......     1

                           OPENING STATEMENTS

Honorable Mike Bost, Chairman....................................     1
Honorable Elizabeth Esty, Ranking Member.........................     2

                               WITNESSES

The Honorable Conor Lamb, U.S. House of Representatives..........     3

The Honorable James B. Renacci, U.S. House of Representatives....     3

The Honorable Doug LaMalfa, U.S. House of Representatives........     5

Mr. Matthew Sullivan, Deputy Under Secretary for Finance and 
  Planning, National Cemetery Administration, U. S. Department of 
  Veterans Affairs...............................................     6
    Prepared Statement...........................................    15

        Accompanied by:

    Dr. Bryce A. Carpenter, Program Manager, Veterans Legacy 
        Program, National Cemetery Administration, U. S. 
        Department of Veterans Affairs

Mr. Carlos Fuentes, Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................     7
    Prepared Statement...........................................    17

Mr. Greg Nembhard, Assistant Director, Claims Discharge Upgrade, 
  Veterans Affairs and Rehabilitation Division, The American 
  Legion.........................................................     8
    Prepared Statement...........................................    18

                        STATEMENT FOR THE RECORD

Jeremy M. Villanueva, Disabled American Veterans (DAV) Associate 
  National Legislative Director..................................    20

 
       LEGISLATIVE HEARING ON H.R. 4312, H.R. 6409, AND H.R. 6420

                              ----------                              


                      Wednesday, September 5, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:49 p.m., in 
Room 334, Cannon House Office Building, Hon. Mike Bost 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bost, Coffman, Bergman, Banks, 
Esty, and Lamb.

            OPENING STATEMENT OF MIKE BOST, CHAIRMAN

    Mr. Bost. We are going to go ahead and get started. We are 
still waiting for a few, but the hearing will come to order.
    First off, I want to thank everybody for joining us today. 
And today we are going to discuss three bills that address a 
central issue: How can we ensure that our Nation never forgets 
the brave men and women who serve in national uniform?
    One of the bills on today's agenda, H.R. 4312, would 
require VA's national cemeteries to allow the display of a 
battlefield cross, which is a monument that depicts a fallen 
servicemember by an inverted rifle and a helmet and dog tags on 
top and a pair of combat boots on the bottom. I know everybody 
has seen those. This is an image that every man or woman who 
has worn the uniform knows and, unfortunately, all too well. It 
is sacred for all of us.
    At one time, there was confusion as to whether the 
battlefield cross could be displayed at a VA cemetery, and I 
appreciate the Department's subsequent clarification that there 
is no prohibition from use of this image. That being said, I 
appreciate the fact that Mr. Renacci--under his leadership, we 
are going to codify this classification, and I am pleased to 
support this bill.
    Another bill, H.R. 6409, would authorize VA to inscribe the 
names of veterans, spouses, and dependents on the VA markers 
placed in private cemeteries. Currently, the VA cannot mark the 
name and date for a deceased spouse on a VA headstone in a 
private cemetery. And Mr. LaMalfa, when he arrives, will have 
that bill, and it allow the VA to do so, just so you know, just 
as it does for spouses buried in the VA national and State 
cemeteries.
    I support the commonsense bill because my office receives 
numerous calls from veterans around the country who are 
frustrated and saddened that their spouses cannot be properly 
memorialized on the VA marker.
    Finally, H.R. 6420, sponsored by Mr. Lamb, would authorize 
VA to award grants instead of contracts to educational 
organizations that research the lives of those who are interred 
in our national cemeteries.
    I know many of our colleagues here today have worked hard 
on their proposals. I look forward to the discussion of how 
these bills will impact the veterans and their families.
    Now I am going to turn it over to Ranking Member Esty for 
her opening statement.

      OPENING STATEMENT OF ELIZABETH ESTY, RANKING MEMBER

    Ms. Esty. Thank you, Mr. Chairman.
    One of the honors I have as serving as ranking Member of 
this Subcommittee is to exercise our collective responsibility 
to oversee and authorize the programs of the National Cemetery 
Administration.
    The excellent work of the national cemetery directors and 
their staff to fulfill the final wishes of eligible veterans 
and their families with respect and dignity at the highest 
standards in the world is something of which all Americans can 
be proud. I know that family members take great comfort from 
the fact that their loved ones' final resting places will be 
maintained at such a high standard in perpetuity long after 
they themselves are gone.
    Today, we have three bills before us, all having to do with 
the Cemetery Administration. I support all of them and look 
forward to any suggestions that the witnesses or fellow Members 
of the Committee have for how these bills might be improved.
    I want to thank my colleagues Mr. LaMalfa, Mr. Renacci, and 
Mr. Lamb for their excellent bills, and, again, to say how 
proud I am to serve on this Committee, which does such good 
bipartisan work, hearing from those we are honored to represent 
and to understand how we can do a better job.
    In particular, I want to congratulate Mr. Lamb for his 
bill, H.R. 6420, allowing the Veterans Legacy Program to 
establish a grant program for the purposes of working with 
institutions of higher education to conduct cemetery research 
and produce educational materials. Universities are much more 
accustomed to working with grants than they are with Federal 
contracts, and this just makes sense and allows us, in fact, to 
provide better for those who visit our cemeteries and to the 
families.
    So, again, welcome to everyone who is in attendance this 
afternoon. I look forward to the testimony and the opportunity 
to ask questions.
    Thank you again, Mr. Chairman, and I yield back.
    Mr. Bost. Thank you, Ms. Esty.
    We are honored this morning by several of our colleagues 
who are going to be testifying about the bills they have 
sponsored: Representative Doug LaMalfa of California, 
Representative Conor Lamb of Pennsylvania, and Representative 
James Renacci of Ohio.
    Welcome. I appreciate all of you taking the time out of 
your day and bouncing around, with this late time and late 
start, for sponsoring this legislation, though, as well, and 
for our Nation's veterans.
    We will begin with our colleague here on the dais, Mr. 
Lamb. You are recognized for 5 minutes to discuss H.R. 6420.

             STATEMENT OF THE HONORABLE CONOR LAMB

    Mr. Lamb. Thank you, Mr. Chairman. It won't take 5 minutes. 
This is just a--this is a simple bill but a significant one.
    The National Cemetery Administration has advised us that it 
will be simpler for the participants in this program to take 
part if it is structured as a grant program instead of a 
contract program. And basically what that allows is 
universities, nonprofits, other local educators to receive 
government funding to do research and develop educational 
materials about the people buried in their local cemeteries.
    So, for us, that is the National Cemetery of the 
Alleghenies that is located in my district. It is a beautiful 
cemetery. A lot of heroes from multiple wars are buried there, 
and people need to know about it. They need to know about who 
these men and women are, both at the cemetery and also 
traveling around western Pennsylvania to schools, universities, 
that kind of thing.
    So this will be much easier, there will be less red tape, 
it will be more efficient if we do it as a grant program 
instead of a contract program. So I hope everyone on the 
Subcommittee will support that.
    Thank you.
    Mr. Bost. Thank you, Mr. Lamb.
    Okay. Now turning to the colleagues at the table, Mr. 
Renacci, you are recognized for 5 minutes to discuss H.R. 4312.

          STATEMENT OF THE HONORABLE JAMES B. RENACCI

    Mr. Renacci. Thank you, Chairman Bost, Ranking Member Esty, 
and Members of the Subcommittee. I am thankful to have the 
opportunity to come before you today and speak on my 
legislation, the Fallen Warrior Battlefield Cross Memorial Act. 
This bipartisan legislation will protect the display of those 
memorials at our Nation's national cemeteries commemorating the 
service of those who gave their lives for our Nation.
    For those unfamiliar with the battlefield cross, also known 
as the soldier's cross, it consists of an inverted rifle 
accompanied by a pair of boots at its base, a helmet over the 
rifle's stock, and a soldier's dog tags. These crosses serve as 
memorials to fallen soldiers at base camp or in the field.
    It is hard to understand the profound meaning that these 
memorials hold for our servicmembers. As one of my staff 
members who served in the Armed Forces explained, ``I kneeled 
in front of 16 battlefield crosses during my 15-month 
deployment in Afghanistan to say goodbye to my brothers in 
arms.''
    The presence of the battlefield cross in national 
cemeteries alongside the graves of our fallen heroes affords 
those of us who have knelt in the dirt and sand of the 
battlefields to kneel again and recognize our comrades who, 
while separated by branch of service, eras of wars, or 
different decades, are brothers in arms nonetheless.
    For a long time, the presence of battlefield cross 
memorials in a national cemetery was not controversial. 
However, last September, battlefield cross memorials in Ohio, 
Illinois, and Michigan were abruptly from their time-honored 
locations in three national cemeteries, one of which is in my 
district.
    My office contacted the National Cemetery Administration, 
and we were informed that they were removed because of the 
policy that such works cannot feature actual ordnance or a 
realistic replica of actual ordnance. An interpretation of this 
policy that extends to brass or concrete rifles is not only 
misguided but strains a reasonable understanding of what 
constitutes a realistic replica.
    Fortunately, under pressure from local veterans and 
inquiries from the congressional office, the National Cemetery 
Administration ultimately returned these battlefield crosses to 
their sites. However, officials did say that no new battlefield 
crosses would be accepted, again citing the same policy.
    This continued misrepresentation of policy ignores the 
special place that the battlefield cross occupies in the hearts 
of our veterans. That is why I introduced the Fallen Warrior 
Battlefield Cross Memorial Act to codify protections for 
battlefield crosses and clarify that their placement in 
national cemeteries shall not be prohibited, regardless of 
whether placed currently or in the future.
    Passage of this legislation is important for two critical 
reasons. First, as the removal last year demonstrated, policies 
and their interpretations can change. Though the National 
Cemetery Administration has thankfully returned those 
battlefield crosses to their location without the force of law, 
there are no permanent protections in place to assure that in 
the future some other official may not again misguidedly 
reinterpret policy and remove them once more.
    Second, and even more important, passage of this 
legislation is important because of what these memorials mean 
to our veterans and the families of fallen soldiers. Elton 
Boyer, president of the 555 Honors Detachment, wrote to my 
office, ``It has been said that a soldier's cross is a symbol 
for caring, honoring, and remembering no one left behind.''
    Pat Murray, a Gold Star Mother from my district, told me, 
``The fact that our heroes who lost their brothers and sisters 
are all fighting to erect this symbol--boots, guns, and a 
helmet with dog tags--in memory as a memorial makes this as 
powerful as a tombstone. Our heroes earned this. Allow them to 
have it.''
    As my time concludes, I would like to thank the Members of 
the Subcommittee for holding a hearing on the Fallen Warrior 
Battlefield Cross Memorial Act, which currently enjoys the 
support of 40 Members of the House. I would also urge passage 
of this legislation by the Full Committee at the earliest 
possible opportunity.
    As evidenced by the voices of those affected by the removal 
of these memorials, we must act to preserve their continued 
placement in our national cemeteries as a testament to their 
service and the sacrifice of our fallen warriors.
    And I yield back.
    Mr. Bost. Thank you, Mr. Renacci.
    We will now hear from Mr. LaMalfa on H.R. 6409. You are 
recognized for 5 minutes.

            STATEMENT OF THE HONORABLE DOUG LAMALFA

    Mr. LaMalfa. Okay. Thank you, Chairman Bost and Ranking 
Member Esty and all the Committee Members. I appreciate the 
chance to really right a wrong here, an oversight.
    So thank you for allowing me to speak on H.R. 6409, called 
the Honoring Veterans' Families Act. It is a simple bill that 
would clarify the current grave marker benefit to ensure that 
the families, especially spouses of veterans, can be added to 
their gravestones.
    Now, in my town of Chico in my district in California, on 
the corner of West Third and Normal Avenue, across the street 
from the Gearhead Barbershop, sits the Bidwell Chapel. Clark 
Masters, who runs and operates the chapel, came to me with an 
issue back in April.
    Mr. Masters said the VA was no longer adding a spouse to a 
veteran's gravestone or leaving a space for the family to add 
the spouse's name later, which seems like an odd issue since 
there is precedent for it. My staff and myself had seen names 
of spouses on veterans' graves before, so we brought it to the 
VA.
    We learned that, due to a flaw in current law, that the 
Department of Veterans Affairs cannot include almost any 
information about the spouse of a veteran on a VA-provided 
tombstone. We also found that, while speaking with the VA, 
there was a mutual interest in addressing this issue, which 
requires a simple policy change.
    As such, it was included in the Department's budget request 
earlier this year, and they worked with us to craft this 
legislation we have here today. Not longer after, this 
Committee reached out to us about their interest in moving this 
bill. So I thank the Committee.
    The reason I wanted to share the brief history behind 6409 
is because I believe it serves as a reinforcement of how good 
policy can be created. Constituents bring issues to us; 
agencies recognize problems and work with us to make the 
changes for the better.
    So, despite it being just a three-page-long bill, which is 
kind of nice for a change, this bill will impact nearly 21 
million people, our veterans, and their families.
    So I hope this Committee will continue this great work on 
supporting our veterans and pass 6409 at the earliest 
opportunity possible.
    Thanks again for allowing me to testify here today. I look 
forward to working with this legislation and this Committee. 
Thank you. I yield back.
    Mr. Bost. I want to thank all the Members.
    And we will forego any questions for the colleagues at this 
time. Any questions may be submitted for the record.
    Mr. Bost. Again, thank you all for being here. Thank you.
    And you are going to stay.
    Okay. I invite the second panel up as soon as the table is 
cleared.
    So joining us today from the VA is Mr. Matt Sullivan, the 
Deputy Under Secretary of Finance and Planning of the National 
Cemetery Administration. Mr. Sullivan is accompanied by Dr. 
Bryce Carpenter, who is the Program Manager of the National 
Cemetery Administration.
    We are also joined by Mr. Greg Nembhard, the Assistant 
Director of Claims Discharge Upgrades of the Veterans Affairs 
and Rehabilitation Division for The American Legion, and Mr. 
Carlos Fuentes, the Director of National Legislative Service of 
Veterans of Foreign Wars.
    Thank you all for being here.
    Mr. Sullivan, we will start with you, and you are 
recognized for 5 minutes to present the Department's testimony.

                 STATEMENT OF MATTHEW SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, I am pleased 
to be here today to provide the views of the Department of 
Veterans Affairs on pending legislation affecting VA's 
programs.
    Accompanying me today is Dr. Bryce Carpenter, representing 
the Veterans Legacy Program.
    I am especially pleased to note that two of the three bills 
being considered today reflect VA proposals contained in the 
President's budget for fiscal year 2019.
    VA supports the passage of H.R. 6409, the Honoring 
Veterans' Families Act, which would amend VA's statutory 
authority on headstones and markers to allow us to inscribe a 
veteran's government-furnished headstone or marker with 
information about that veteran's deceased spouse or eligible 
dependent child for use in non-VA cemeteries. This would 
include headstones or markers placed in veteran cemeteries 
owned by a tribal government or other State, local, or private 
cemeteries.
    This bill would not change how these headstones and markers 
are inscribed in national cemeteries or VA-grant-funded State 
veteran cemeteries and would not expand eligibility for a 
headstone and marker to spouses and dependents buried outside 
of a VA national cemetery. Rather, it would allow VA to 
accommodate a family's request to include information about a 
veteran's loved one in the inscription on a veteran's 
government-furnished headstone or marker.
    VA also supports the passage of H.R. 6420, which is similar 
to a VA proposal in the President's budget for fiscal year 
2019. The bill would provide VA with the authority to establish 
a grant program to conduct cemetery research and produce 
educational materials under the auspices of the Veterans Legacy 
Program, or VLP.
    VLP supports NCA's ongoing mission to honor veterans and 
their eligible family members with final resting places and 
lasting tributes by providing engagement and educational tools 
and opportunities for the public to learn about veterans' 
service and sacrifice. By engaging educators, students, 
researchers, and the public, VLP proudly shares the stories of 
those who served and helps individuals understand why national 
cemeteries are set aside as national shrines.
    The use of grants instead of contracts is a more 
appropriate vehicle for VA to obtain educational tools and 
services for VLP in the future by allowing VLP to adopt an 
award cycle that more closely aligns with the academic calendar 
of universities and other learning institutions, which are 
expected to be the entities that will produce VLP learning 
products.
    VLP could also use this vehicle to increase its flexibility 
and the size of an award, thus making better use of its 
resources to increase the reach of the program beyond large 
universities to smaller groups that wish to engage with VA and 
enhance the memorialization of veterans.
    Dr. Carpenter is here to answer any specific questions you 
may have regarding the VLP and the benefit we hope to gain by 
use of the grant authority.
    Finally, H.R. 4312, the Fallen Warrior Battlefield Cross 
Memorial Act, would ensure that VA may not prohibit the display 
of the battlefield cross, which VA refers to as the fallen 
soldier display, in any national cemetery.
    The bill defines the battlefield cross as a memorial 
monument in honor of fallen members of the Armed Forces that 
may include a replica of an inverted rifle, boots, helmet, and 
identification tag.
    VA does not support passage of H.R. 4312 in its current 
form because it would not allow VA any discretion to establish 
standards to manage the display of these monuments in national 
cemeteries.
    I want to assure the Members of the Committee and our 
stakeholders that VA recognizes the significant respect 
accorded to this display. And that is why, in December 2017, we 
issued a new policy to clarify that national cemeteries may 
accept and display the fallen soldier display.
    However, the NCA policy includes standards that ensure 
these monuments are displayed in a manner that would enhance 
the appearance and operations of the national cemeteries. For 
example, NCA guidance notes that the fallen soldier display may 
be a three-dimensional replica or a two-dimensional image 
engraved on a stone. The guidance also includes specifications 
regarding size and construction materials. These requirements 
ensure a consistency in appearance, durability of the monument, 
and ease of maintenance.
    The VA notes that this additional guidance is lacking in 
H.R. 4312, which may raise questions as to VA's ability to 
apply such design standards. We welcome the opportunity to work 
with the Committee staff to address these issues should the 
bill move forward.
    This concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you or the Members of the Subcommittee 
may have. Thank you.

    [The prepared statement of Matthew Sullivan appears in the 
Appendix]

    Mr. Bost. Okay. Thank you.
    Mr. Fuentes, you are recognized for 5 minutes.

                  STATEMENT OF CARLOS FUENTES

    Mr. Fuentes. Chairman Bost, Ranking Member Esty, and 
Members of the Subcommittee, on behalf of the VFW and our 
auxiliary, thank you for the opportunity to present our views 
on legislation pending before the Subcommittee.
    The VFW supports the Fallen Warriors Battlefield Cross 
Memorial Act.
    Last year, members of VFW Post 3345 in Strongsville, Ohio, 
erected a battlefield cross by the Ohio Western Reserve 
National Cemeteries Chapel as a sign of respect for their 
fallen comrades buried at that cemetery. There were in dismay 
when the director wrongfully removed the memorial because it 
depicted violence.
    The battlefield cross has a special significance to the VFW 
and its members, all of whom who have deployed into harm's way 
in a foreign land. It is used to honor and remember our 
brothers and sisters who have made the ultimate sacrifice.
    The VFW is glad VA reversed the director's decision and 
issued a notice to all national cemetery directors that makes 
clear VA's policy to allow the display of the battlefield cross 
at any VA national cemetery.
    The VFW supports the Honoring Veterans' Families Act, which 
would ensure VA is able to properly recognize surviving spouses 
and dependents of our Nation's veterans. Current law does not 
permit VA to replace a veteran's government-furnished headstone 
to inscribe the name of the deceased veteran's spouse or 
dependent who is interred with the veteran.
    The VFW is also glad this bill would establish a 
retroactive effective date. The VFW would, however, recommend 
that the Subcommittee make November 11, 1998, the effective 
date to align it with a recently enacted law to fix a 
discrepancy in eligibility for headstones between spouses and 
children.
    The VFW also supports H.R. 6420, which would support and 
enhance the VA Veterans Legacy Program. Perpetuating the memory 
and the history of our dead is one of the VFW's founding 
principles. That is why, this past Memorial Day, 2,300 VFW 
posts throughout the country partnered with Ace Hardware to 
mark and honor veterans' graves with 1 million American flags.
    The Veterans Legacy Program ensures that the memory and 
stories of the brave men and women who have worn our Nation's 
uniforms are preserved and shared. The VFW is a strong 
supporter of this program and has worked with the National 
Cemetery Administration to improve and expand it.
    Mr. Chairman, this concludes my remarks. I am happy to 
answer any questions you and the Members may have.

    [The prepared statement of Carlos Fuentes appears in the 
Appendix]

    Mr. Bost. Thank you, Mr. Fuentes.
    Mr. Nembhard, are you ready for 5 minutes? Please.

                   STATEMENT OF GREG NEMBHARD

    Mr. Nembhard. The American Legion believes it is a priority 
to ensure the men and women who selflessly served our Nation 
receive the benefits they have earned for serving in the U.S. 
Armed Forces. We believe the government has a sacred obligation 
to establish the most respectful interment for our fallen 
heroes.
    The American Legion remains committed to working with this 
critical committee and the National Cemetery Administration 
regarding veteran interment to adequately provide veterans and 
their family members the honorable burials they deserve.
    Chairman Bost, Ranking Member Esty, distinguished Members 
of the Subcommittee on Disability Assistance and Memorial 
Affairs, on behalf of our national commander, Brett Reistad, 
and the 2 million members of The American Legion, I thank you 
for the opportunity to testify regarding pending legislation 
before you.
    H.R. 4312, H.R. 6409, and H.R. 6420 are all commonsense 
solutions, and The American Legion is thankful for your 
leadership in bringing these forward. These three bills simply 
protect the honorable burials, the family members, and the 
benefits earned by those who have raised their right hand and 
taken the oath to defend the U.S. Constitution from all 
enemies, foreign and domestic.
    H.R. 4312, the Fallen Warrior Battlefield Cross Memorial 
Act, would ensure the Secretary of Veterans Affairs permits the 
display of battlefield crosses in all national cemeteries. The 
American Legion seeks to protect these sacred symbols and 
supports legislation preventing the removal of battlefield 
crosses in national cemeteries. This legislation ensures the 
preservation of these important and meaningful memorials.
    The American Legion, through Resolution No. 11, supports 
and defends veterans and military memorials bearing symbols 
and/or words historically associated with religious expression. 
Further, we support such veterans' memorials whether they are 
on private land or land owned by the Federal, State, or local 
governments.
    Secondly, H.R. 6409, the Honoring Veterans' Families Act, 
would authorize the Secretary to provide inscriptions for 
spouses and children on certain headstones and markers 
furnished by the Department of Veterans Affairs.
    The American Legion strives to ensure veterans and their 
family members receive the support and recognition they 
deserve. However, current law does not allow the VA to add 
information about spouses and/or children to the gravestone or 
marker of a veteran buried with a government-furnished 
headstone or marker in a non-VA cemetery. This practical 
legislation ensures these family members receive the same honor 
customarily practiced in modern society.
    Through American Legion Resolution 377, we happily support 
H.R. 6409.
    Finally, H.R. 6420 would permit the Secretary to establish 
a grant program to conduct cemetery research and produce 
educational materials for the Veterans Legacy Program.
    In 2017, the NCA established the Veterans Legacy Program, a 
grant-based partnership between NCA and academic institutions 
to conduct research on the lives of veterans interred in NCA 
cemeteries. The research illuminates the life of those buried 
in NCA cemeteries, honoring their contributions to the country 
and to their communities. VLP makes information available to 
the public through informative materials such as interactive 
maps to educate visitors.
    The American Legion supports the Veterans Legacy Program. 
H.R. 6420 will permit cemetery research and educational 
materials production as well as identification of eligible 
recipients, such as institutions of hiring learning, local 
agencies, nonprofit organizations, and other eligible 
recipients as determined by the VA Secretary.
    Through American Legion Resolution No. 377, we support 
legislation aimed at ensuring the stories of veterans are never 
forgotten, and the Veterans Legacy Program is a great step 
forward in that initiative.
    In closing, The American Legion believes in commonsense 
solutions that help our veterans. By the actions of this 
Committee, we can also see that you feel the same way.
    Thank you again, Chairman Bost, Ranking Member Esty, and 
distinguished Members of this Committee. I appreciate the 
opportunity to present The American Legion's views and look 
forward to any questions that you may have.

    [The prepared statement of Greg Nembhard appears in the 
Appendix]

    Mr. Bost. Thank you.
    And thank all the witnesses for being here.
    In the interest of time, I am going to keep everyone, 
including myself, to no more than 5 minutes for questioning.
    So I will start off. My first question is for Mr. Sullivan.
    Can you please explain why the battlefield cross was 
removed from Ohio Western Reserve National Cemetery in the 
first place?
    Oh, did you need to make an opening statement? Okay. We are 
fine. Okay.
    So, Mr. Sullivan, did you get the question? I am sorry.
    Mr. Sullivan. Yes, sir.
    Mr. Bost. All right.
    Mr. Sullivan. Thank you for the question, Mr. Chairman.
    To facilitate a reflective and peaceful atmosphere for 
visitors at our national cemeteries, NCA has had a longstanding 
policy to restrict acceptance of donations of memorials that 
are actual military equipment or implements of war or memorials 
that feature actual or depictions of ordnance.
    Based upon the character and the nature of a fallen soldier 
display--it can take multiple forms--there can be 
inconsistencies among cemetery directors, when they receive 
these donation proposals and apply our standards, could have 
some inconsistency in making those decisions. So for those 
reasons, I think there was some confusion in the application of 
our policy on acceptance of these type of displays. And that is 
why, in December of 2017, we issued the clarification on the 
policy to provide more consistency in making those decisions.
    Mr. Bost. Okay.
    Then a follow-up question from me is specifically this: 
Without a law, how do we guarantee that a future director, 
future Secretary would not change it and go back and say, okay, 
no, we don't want those displays anymore?
    Mr. Sullivan. Thank you for the question.
    In our current policy, we do not prohibit the acceptance of 
these donations. We simply provide some guidance and standards 
around the types of donations that we would accept as fallen 
soldier displays.
    So there is nothing in the future that, you know, could 
prohibit or stop us from changing policy, but our policy is 
that we will accept these displays. We make certain guidelines 
about the acceptance of these displays so that we have the 
uniform appearance, that they accentuate the visitor 
experience, the appearance, and the operations of our 
cemeteries. And they are not meant to be restrictive; they are 
meant to accentuate, again, our mission and the visitor 
experience.
    Mr. Bost. And I believe that is your intent. The concern I 
have--and this is just a statement--is that in the future--and 
that is why we are here, is to make sure that doesn't happen 
again. But, you know, I am looking forward to working with you 
and the sponsor and trying to figure out a way where we get 
some clear definition but it is set in law so that we can have 
the answers for that.
    And I need to do a second question. It is vitally important 
here. This is regarding H.R. 6409. Can you explain why the VA 
has recommended the effective date for that, 6409, be January 
1, 2014, and where you came up with that date?
    Mr. Sullivan. Yes. Thank you for the question.
    Mr. Chairman, we believe that that is a good date for the 
applicability date of that proposed bill because that would 
allow recent veterans that have died and their surviving 
spouses to apply for the benefit and receive a headstone or 
marker that has a spousal inscription.
    So, again, if a veteran has recently died, January 1, 2014, 
or later, a surviving spouse that has recently died would be 
eligible. And most of those surviving spouses, again, based 
upon Social Security Administration actuary data and the 
lifespan of a female versus a male, that they would be eligible 
for this new benefit.
    Mr. Bost. What data are you actually relying on?
    Mr. Sullivan. The data is the Social Security 
Administration data that indicates, in general, women living 
approximately 4.75 years longer than men. Given these 
assumptions, setting this applicability date retroactively to 
those veterans that die January 1, 2014, or later would allow 
us to provide replacements that include spousal inscriptions 
for those spouses who die in the 5-year period prior to 
submission of this proposal.
    Mr. Bost. And my time is almost up. The only concern I have 
there is spouses are not only just female. They are male, 
female, because we have serving male and female. So I just want 
to make sure that we have the right information so that we can 
move forward in the right away. We don't want to cut anybody 
out and say, okay, we made a mistake on the date.
    But we look forward to working with that.
    With that, my time has expired. And Ms. Esty?
    Ms. Esty. Thank you very much. And I will get as far as I 
can get, and hopefully we can get our questions asked and 
answered.
    For Mr. Nembhard, first, congratulations to the Legion on 
the 100th anniversary. And we particularly appreciate that you 
made the time to answer the questions and appear today, knowing 
that you have been very busy in the last few weeks. So, again, 
congratulations and thank you.
    One of the questions that I think we had--and, again, it is 
going back to the battlefield cross--is, should there be other 
symbols? Because I assume that is part of the question, is, 
what are the standards we establish for symbols? And in the 
view of the Legion--and, Mr. Fuentes, I will ask you that as 
well--are there other ones that have come into common usage?
    I certainly know, in my own district, we are certainly 
seeing the fallen warrior battlefield cross. But are there 
others that you are aware of that we should kind of have on our 
radar and begin to think about?
    And that goes to Mr. Sullivan's point somewhat about 
standards, is thinking about how do we be as inclusive as 
possible and yet maintain the dignity, sacredness, and some 
consistency and continuity.
    Mr. Nembhard. Thank you for that question, Ranking Member 
Esty.
    As you know, the tradition of the battlefield cross, 
inverting the rifle, goes back to the Revolutionary War. It was 
a crude way of marking the spot of a fallen soldier. It remains 
today a patriotic symbol, a tribute to our servicemembers who 
have been killed in action.
    I am not aware currently of any other symbols, but if I 
should become of one, we look forward to bringing that up later 
on.
    Mr. Fuentes. Yes, ma'am, there's been a number of issues 
with whether there are some memorials that are donated that 
meet the standards laid out by NCA. But that was actually one 
of our concerns with the bill. You know, is there going to be a 
litmus test to determine what else we are going to be adding? 
Are we setting a standard where we are going to just have to 
keep adding different types of memorials and specific types of 
donations?
    Ultimately, the VFW would support a more broad authority or 
requirement that VA accept something that is, you know, 
acceptable that wouldn't really, you know, tarnish the image of 
a national cemetery.
    Ms. Esty. Again, I think we want to work with the VA and 
accomplish what I think we all are here to do, which is to 
accomplish the wishes of veterans and their families, to 
recognize the service and sacrifice.
    But I think the points you raised, Mr. Sullivan, about 
three-dimensional versus two-dimensional, appropriate 
placement, are ones that we are certainly open on the 
Committee, I think, to working with you to get full support by 
everyone to move forward.
    We have had testimony, Mr. Sullivan, about trying to 
understand why--is it a financial issue not to go further back? 
And there was an equity issue that was mentioned about going 
further back, 1998. Why should we not go further back to 
incorporate spouses and children? Because, certainly, that 
Social Security data would establish whether that, in fact, was 
true at the time or not.
    So, again, we are trying to get a handle on, is this a 
financial decision? Is this a decision made about replacement 
of a certain number of headstones? Please illuminate that a 
little bit.
    Mr. Sullivan. Okay. Thank you for the question, Ranking 
Member Esty.
    There is definitely a financial implication in terms of the 
bill. By going back, setting an applicability date back to 
1998, that would definitely increase the cost associated with 
the proposal.
    Right now, we are--we did estimate cost by looking at the 
annual workload in terms of how many headstones or markers we 
issue in a given year and by taking certain subsets of the 
eligible population, such as looking at only the subset where 
the headstone or marker is issued for placement in a non-VA 
cemetery, like a local or private cemetery in which this bill 
destines these types of headstones and markers to be placed--we 
kind of carved that piece out. And then we further took another 
subset of those issued to veterans where they had surviving 
spouses. And then we estimated, based upon program subject 
matter expertise, what the utilization rate would be.
    So, if we took the applicability date back to 1998, that 
would definitely increase the cost associated with the bill, 
and we are very conscious of that cost.
    Ms. Esty. Thank you.
    And I see my time has expired.
    Mr. Bost. Thank you.
    Mr. Bergman, you are recognized for 5 minutes.
    Mr. Bergman. Well, first of all, thanks for the hearing, 
Chairman.
    And thank you for all of you to be here. I am really not 
going to ask you any questions, from the standpoint of I know 
we are all here in this room for the right reason, and that is 
to appropriately honor our veterans and their families over a 
long period of time.
    Because I can tell you, one of the beauties of Arlington--
and these are in the words of my at that time 14-year-old 
grandsons as we walked there on a November day in 2015. What 
they saw was a very solemn place which had the grave sites of 
our men and women, to include a former President and others and 
leaders of our country, who, when you come there, you see what 
we are and who we are as a country. We guard our memories 
carefully, and we have to do it in such a way that it is 
respectful over centuries.
    And I thank you for being pragmatic. I thank you for, if 
you will, looking forward, that what makes sense to still 
continue to honor our veterans.
    So I will just leave it at that and just say we are 
partners in this together, and if there is some reason that we 
have to come together here to make a decision, we will, because 
we honor that service.
    Thank you.
    Mr. Bost. Thank you.
    Mr. Lamb?
    Mr. Lamb. Gentlemen, I don't have any questions either. I 
just want to thank you for coming today and for supporting the 
legislation and giving us the information that you have. It 
really helps us.
    And, Mr. Chairman, I yield back. Thank you.
    Mr. Bost. Okay.
    If there are no further questions for our second panel, I 
will recognize Ms. Esty to close.
    Ms. Esty. Again, I want to thank the Chairman, my fellow 
Subcommittee Members, to all of you here today, for helping us 
do right by those who have given their lives in service to 
their country.
    And, again, as General Bergman noted, it is a 
multigenerational commitment. Our national cemeteries and our 
State cemeteries are truly an important part of this country's 
heritage, a learning opportunity for young and old and those 
older about the service and sacrifice that has been built this 
Nation.
    So, again, I want to thank all of you and encourage you to 
reach out with suggestions as to how we can improve the 
legislation in front of us today.
    And, again, want to commend Mr. Lamb and our other 
colleagues for bringing forward these commonsense ideas that 
can improve the lives of Americans and improve the history of 
this country and recognize the service and sacrifice.
    Thank you, Mr. Chairman.
    Mr. Bost. Thank you to everyone for joining us today and 
for sharing your views with the Subcommittee. Your testimony 
provides us with important insights into the proposals as we 
move forward through this legislative process.
    I ask unanimous consent that DAV's written statement for 
the record be included in the hearing record.
    Without objection, so ordered.
    Mr. Bost. I also ask unanimous consent that all Members 
have 5 legislative days to revise and extend their remarks and 
include extraneous material on any of the bills under 
consideration this afternoon.
    And, without objection, so ordered.
    Mr. Bost. This hearing is now adjourned.

    [Whereupon, at 2:30 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Matt Sullivan
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to provide the views of the Department of Veterans Affairs 
(VA) on pending legislation affecting VA's programs. Accompanying me 
today is Bryce Carpenter, Educational Outreach Program Officer, 
National Cemetery Administration (NCA).

H.R. 6409

H.R. 6409, the ``Honoring Veterans' Families Act,'' would amend 38 
    United

    States Code (U.S.C.) Section 2306 to allow VA to provide 
inscriptions regarding a deceased spouse or eligible dependent child on 
a Veteran's Government furnished headstone or marker. If feasible and 
upon request, VA would be authorized to inscribe information regarding 
a spouse or eligible dependent child who has predeceased the Veteran on 
the Veteran's Government furnished headstone or marker destined for 
placement in a non-VA cemetery at the time of the Veteran's death. VA 
would also be authorized to replace, if feasible and upon request, a 
previously-furnished headstone or marker for a Veteran buried in a non-
VA cemetery to inscribe information about the Veteran's spouse or 
eligible dependent child following the death of the spouse or child. 
The bill would define ``non-VA cemetery'' as a Veterans' cemetery owned 
by a State, or a State, local, tribal, or private cemetery. The 
provisions of the bill would be effective for deaths on or after 
January 1, 2014.
    This legislation is consistent with a VA proposal in the 
President's Budget for fiscal year (FY) 2019; VA supports H.R. 6409, 
provided Congress can identify corresponding funding offsets.
    In recent years, VA has received an ongoing and steady interest by 
families to have information about a Veteran's loved one, beyond just 
general terms of endearment referring to a spouse, inscribed on the 
Government-furnished headstone or marker. These headstones or markers 
would mark the gravesites of Veterans who are eligible for burial in a 
National cemetery, but not buried there, including gravesites in 
private and local government cemeteries as well as VA grant-funded 
Veterans cemeteries.
    The bill would not expand eligibility for the headstone and marker 
benefit to spouses and dependents buried outside of a VA National 
cemetery (who, under current statutory authority in 38 U.S.C. <l-arrow> 
2306 are not eligible for a headstone or marker of their own in local, 
private, or VA-funded tribal cemeteries). Rather, the bill will allow 
VA to inscribe information about a deceased spouse or dependent child 
on a Veteran's headstone or marker at the time of the Veteran's death. 
The information would be included either when the Veteran's headstone 
or marker is requested (if the spouse or dependent child has pre-
deceased the Veteran) or on a replacement headstone or marker (if the 
spouse or dependent child dies after the Veteran). Replacement is the 
most cost-efficient way to provide this additional inscription, as VA 
does not have resources to add inscriptions to pre-set headstones in 
cemeteries outside the national cemetery system.
    VA estimates that this bill will result in costs to the mandatory 
Compensation and Pension appropriation of approximately $1.1 million in 
2019, $4.7 million over 5 years, and $8.9 million over 10 years. By 
making this benefit available for deaths on and after January 1, 2014, 
the bill will allow VA to process requests to provide a replacement 
headstone or marker to add information about recently-deceased spouses 
and dependent children (in cases where the spouse or child has recently 
died after the Veteran and the Government has already furnished the 
Veteran's headstone or marker).

H.R. 6420

    H.R. 6420 would provide VA with the authority to establish a grant 
program to conduct cemetery research and produce educational materials 
under the auspices of the Veterans Legacy Program (VLP). VLP supports 
the ongoing mission of the National Cemetery Administration to honor 
Veterans and their eligible family members with final resting places 
and with lasting tributes by providing engagement and educational tools 
and opportunities for the public to learn about Veterans' service and 
sacrifice. By engaging educators, students, researchers, and the 
public, VLP proudly shares the stories of all those who served to help 
build an appreciation of what earlier generations have given to the 
Nation, and to help individuals understand why national cemeteries are 
set aside as national shrines.
    VA supports H.R. 6420, which is similar to a proposal in the 
President's Budget for FY 2019. VLP seeks to continually develop 
learning products to ensure educational opportunities to commemorate 
Veterans' service and sacrifice to our Nation are available to 
educators, students, researchers, and the public. To date, VA, working 
through the VLP, has awarded 12 separate contracts to conduct cemetery 
research and produce VLP educational material for use in elementary and 
high schools and the public to promote community engagement with 
Veterans' history. These contracts were awarded to procure a framework 
of digital and non-digital tools based on research that focused on 
Veterans interred at national cemeteries. In addition to developing 
biographies of Veterans, which are available on-line (including video 
presentations on YouTube), lesson plans and walking tours have been 
developed that can be employed without digital media/computers, so that 
teachers can print out a lesson plan and its accompanying resources to 
use with all students in the classroom, or on-site at the national 
cemetery. VLP has produced over 119 Veteran biographies, 10 documentary 
films about Veterans, and 6 Veterans cemetery walking tours, all based 
on research conducted on-site in VA national cemeteries by students. 
Under the contracts issued to date, VLP will have engaged almost 9,000 
students from kindergarten through high school, over 300 teachers and 
200 undergraduate students, nearly 40 graduate students, and over 50 
scholars.
    The use of grants instead of contracts would be a more appropriate 
vehicle for VA to obtain educational tools and services for VLP in the 
future. In particular, the use of grants would allow VLP to adopt an 
awards cycle that more closely aligns with the academic calendar of 
universities and other learning institutions, which are largely 
expected to be the entities to produce VLP learning products. VLP could 
also use this vehicle to increase its flexibility in the size of an 
award, thus making better use of its resources to increase the reach of 
the program beyond large universities to smaller groups that wish to 
engage with VA in enhancing the memorialization of Veterans.
    This bill would incur no additional cost to VA, as funds are 
already allocated for VLP. Grants authorized by this bill would be an 
additional tool, beyond contracts, for the appropriate disbursement of 
existing allocated funds for VLP.

H.R. 4312

    H.R. 4312, the ``Fallen Warrior Battlefield Cross Memorial Act,'' 
would ensure that VA may not prohibit the display of the ``Battlefield 
Cross'' in any national cemetery. The bill defines the ``Battlefield 
Cross'' as a ``memorial monument in honor of fallen members of the 
Armed Forces that may include a replica of an inverted rifle, boots, 
helmets, and identification tag.''
    VA does not support passage of H.R. 4312 in its current form 
because it would not allow VA any discretion to establish standards for 
the display of these monuments, which VA refers to as ``fallen soldier 
displays.'' VA has an existing policy that includes standards, such as 
those related to size and construction materials, that allow these 
monuments to be displayed in a manner that would enhance the appearance 
and operation of the national cemeteries. These standards may be 
rendered unenforceable under this bill as currently drafted.
    To facilitate a reflective and peaceful atmosphere for visitors, 
NCA has a long-standing policy prohibiting acceptance of donations of 
military equipment or implements of war in its national cemeteries. 
Similarly, NCA guidelines restricted acceptance of memorials featuring 
actual or realistic replicas of ordnance. However, in recent years, VA 
has noted an increased interest in donations of the fallen soldier 
display to several national cemeteries. Review and acceptance of these 
donation offers was inconsistent across cemeteries, based on varying 
interpretations of the policies. Upon review, NCA determined that the 
familiarity of the fallen soldier display and its particular use of a 
rifle was sufficient to warrant an exception from the established 
policy, with some additional guidelines regarding size and construction 
of the monument. For example, NCA guidance notes that the fallen 
soldier display may be a three-dimensional replica or it may be an 
engraved image on a stone. The guidance also includes specifications 
regarding size and construction materials. These requirements ensure a 
consistency in appearance, durability of the monument, and ease of 
maintenance for cemetery personnel. VA notes that this additional 
guidance is lacking in H.R. 4312, which may raise questions as to VA's 
ability to apply such design standards. We welcome the opportunity to 
work with committee staff to address these issues, should the bill move 
forward.
    VA estimates that VA would not incur any significant additional 
cost if H.R. 4312 were enacted because VA already has statutory 
authority to accept donations of monuments to VA. Maintenance for 
donated memorials is part of VA's overall operational expenses for the 
national cemeteries.
    This concludes my statement, Mr. Chairman. We would be happy now to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                  Prepared Statement of Carlos Fuentes
    Chairman Bost, Ranking Member Esty, and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to provide our remarks on legislation pending before the 
Subcommittee.

H.R. 4312, Fallen Warrior Battlefield Cross Memorial Act

    The VFW supports this bill, which would prevent the Department of 
Veterans Affairs (VA) from prohibiting the display of a battlefield 
cross in a VA national cemetery.
    This past year, VFW members from VFW Post 3345 in Strongsville, 
Ohio, erected a battlefield cross by the Ohio Western Reserve National 
Cemetery's chapel as a sign of respect for their fallen comrades buried 
at the cemetery. They were in dismay when the then director wrongly 
removed the memorial because it depicted violence. To VFW members, all 
of whom have deployed into harms way in a foreign land, the battlefield 
cross has a special significance. It is used to honor and remember our 
brothers and sisters who have made the ultimate sacrifice.
    The VFW is glad VA reversed the Ohio Western Reserve National 
Cemetery director's decision and issued a notice to all national 
cemetery directors entitled ``Acceptance of Donations Featuring the 
Fallen Solider Display,'' which makes clear VA's policy to allow the 
display of the battlefield cross at any VA national cemetery. VFW Post 
3345 members report that the Ohio Western Reserve National Cemetery 
instance was resolved within three days and has not reoccurred. For 
that reason, the VFW does not believe this legislation is needed, but 
agrees with the intent of ensuring veterans can continue to honor their 
loved ones.

H.R. 6409, Honoring Veteran's Families

    The VFW supports this legislation, which would authorize VA to 
properly recognize the surviving spouse and dependents of our nation's 
veterans, and has two recommendations to improve it.
    Current law does not permit VA to replace a veteran's government-
furnished headstone to inscribe the deceased veteran's surviving spouse 
or dependent who is interred with the veteran. This bill would 
authorize VA to replace a veteran's headstone to ensure it rightfully 
honors the spouse or dependent that is laid to rest with the veteran.
    It would also authorize VA to replace a headstone that has been 
used to mark the grave of a spouse or dependent that precedes the 
veteran. However, the bill does not specifically authorize VA to 
replace a private marker for the spouse or dependent, or provide a 
government-furnished headstone to a spouse or dependent who precedes 
the veteran. To prevent veterans from bearing the cost of a private 
headstone to honor the veteran's spouse or dependent, whom the veteran 
plans to join in interment, the VFW urges the Subcommittee to authorize 
VA to provide government-furnished headstones to such individuals. 
Currently, VA lacks the authority to furnish a headstone for an 
eligible spouse or dependent who precedes an eligible veteran in death 
and is interred in a private or tribal cemetery.
    Regardless, this bill must be amended to specifically authorize VA 
to replace a spouse's or dependent's private headstone with a 
government-furnished headstone. Without such authority, veterans who 
wish to be interred with their loved ones who preceded them may be 
afforded the opportunity to obtain government-furnished headstones, 
which have become identifying symbols to mark the final resting places 
of our nation's heroes.
    The VFW is also glad this bill would establish a retroactive 
effective date to authorize VA to properly recognize a spouse or 
dependent who is already interred with an eligible veteran, but lacks 
the proper recognition on the veteran's headstone. The VFW would, 
however, recommend that the Subcommittee amend this bill to align the 
effective date with Public Law 115-136, which corrected the disparity 
of eligibility for headstones between spouses and dependents. It 
authorized VA to provide headstones for certain spouses and dependents 
who die on or after November 11, 1998. The VFW urges the Subcommittee 
to establish the same effective date for this authority.

H.R. 6420, to establish a grant program to conduct cemetery research 
    and produce educational materials for the Veterans Legacy Program

    The VFW supports this bill, which would support and enhance the VA 
Veterans Legacy Program.
    Perpetuating the memory and history of our dead is one of the VFW's 
founding principles. That is why the VFW has collaborated with Ace 
Hardware to honor veterans by giving out 1 million American-made flags 
nationwide. This past Memorial Day, 2,300 VFW posts throughout the 
country used the donated flags to mark and honor veteran's graves.
    The Veterans Legacy Program ensures the memories and stories of the 
brave men and women who have worn our nation's uniform are preserved in 
perpetuity. While it is still being fully developed, the program 
provides an avenue for students, descendants, friends, and fellow 
veterans to learn about the contributions veterans who are interred at 
VA national cemeteries made to their communities and the country. The 
VFW is a strong supporter of this program and has worked with the 
National Cemetery Administration to improve and expand it.
    This bill would establish a grant to help VA conduct research and 
produce educational materials for the program, which are the most 
labor-intensive and often difficult parts of the program. The VFW 
believes that such a grant would expedite the research process and 
ensure this important program is expanded to all VA national cemeteries 
as soon as possible.
    Mr. Chairman, this concludes my testimony. I am prepared to take 
any questions you or the Subcommittee members may have.

                                 <F-dash>
                  Prepared Statement of Greg Nembhard
    Chairman Bost, Ranking Member Esty and distinguished members of the 
Subcommittee on Disability Assistnce and Memorial Affairs (DAMA); on 
behalf of National Commander Brett Reistad and the 2 million members of 
The American Legion, serving every man and woman who has worn a uniform 
for this country, thank you for the opportunity to testify on the 
following pending legislation. Established in 1919, and as the largest 
patriotic service organization in the United States with a myriad of 
programs supporting veterans, The American Legion appreciates the 
Committee focusing on these critical issues that will affect veterans 
and their family members.
    A sacred obligation of the government is to establish the most 
respectful interment for our fallen heroes. One of the priorities of 
The American Legion is to ensure the men and women who selflessly 
served our nation receive the benefits they earned for serving in the 
U.S. Armed Forces. The American Legion recognizes the commitment to 
excellence displayed daily by the men and women of the National 
Cemetery Administration (NCA). The American Legion remains committed to 
working with the NCA regarding veteran interment to adequately provide 
veterans and their family members the honorable burials they deserve.

H.R. 4312 - Fallen Warrior Battlefield Cross Memorial Act

    To amend title 38, United States Code, to ensure the Secretary of 
Veterans Affairs permits the display of Battlefield Crosses in national 
cemeteries.
    The Fallen Warrior Battlefield Cross Memorial consists of a helmet, 
inverted rifle, boots, and identification tags (dog tags) draped from 
the rifle, in honor and remembrance of those who died on the field of 
battle while protecting our nation's freedoms. A United States Army 
field manual describes a battlefield cross, also known as a Fallen 
Soldier Display, as a helmet and identification tags to signify the 
dead soldier; an inverted rifle with a bayonet to signal a time for 
prayer; a break in the action to pay tribute to a comrade; and combat 
boots to represent the final march of the last battle. \1\
---------------------------------------------------------------------------
    \1\ A Soldier's Guide - Field Manual (FM) 7-21.13
---------------------------------------------------------------------------
    Current law authorizes national and state cemeteries to display the 
Fallen Warrior Battlefield Cross, however, recent guidance from the 
Department of Veterans Affairs (VA) and NCA led to the removal of 
memorial monuments featuring actual or realistic replicas of weaponry, 
resulting in the removal of battlefield cross memorials in numerous 
national cemeteries. \2\
---------------------------------------------------------------------------
    \2\ Incident News Article
---------------------------------------------------------------------------
    In October 2017, at Ohio's Western Reserve National Cemetery, a 
battlefield cross was removed by cemetery officials. NCA removed the 
memorial because it violated their policy regarding monuments depicting 
weaponry. While the cemetery ultimately decided to restore the cross, 
this incident demonstrated the need for a law to protect these 
memorials. In response to, and to guarantee a similar incident does not 
occur, H.R. 4312 ensures the VA Secretary will allow the display of 
battlefield crosses in national cemeteries.
    The Fallen Warrior Battlefield Cross is a patriotic tribute to 
servicemembers who were killed in action. The American Legion seeks to 
protect these sacred symbols and supports legislation preventing the 
removal of battlefield crosses in national cemeteries. H.R. 4312, The 
Fallen Warrior Battlefield Cross Memorial Act, will guarantee NCA 
officials recognize and authorize memorial crosses as tributes to our 
nation's servicemembers who were killed in action.
    Through American Legion Resolution No. 11, Support and Defend 
Veterans and Military Memorials, \3\ we support and defend veteran and 
military memorials bearing symbols and/or words which may be alleged to 
be historically associated with religious expression, including, but 
not limited to crosses, stars of David, crescents, and the word 
``God.'' The American Legion supports such veterans' monuments whether 
they are on private land or land owned by federal, state or local 
governments.
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 11 (2016): Support and 
Defend Veterans and Military Memorials

---------------------------------------------------------------------------
    The American Legion supports H.R. 4312.

H.R. 6409 - Honoring Veterans' Families Act

    To amend title 38, United States Code, to authorize the Secretary 
of Veterans

    Affairs to provide inscriptions for spouses and children on certain 
headstones and markers furnished by the Secretary.
    Under current law, veterans who are honorably discharged from 
military service are authorized a government-issued headstone or marker 
in an NCA cemetery or a privately-owned cemetery. Further, veteran's 
spouses and eligible children buried in an NCA cemetery can receive a 
headstone or marker. However, current law does not allow the VA to add 
information about spouses and/or children to the gravestone or marker 
of a veteran buried with a government-furnished headstone or marker in 
a non-VA cemetery.
    The American Legion strives to ensure veterans and their family 
members receive the support and recognition they deserve. Including 
family information on a headstone or marker is a standard custom in 
society, and the families of veterans should not be any different. H.R. 
6409, The Honoring Veteran Families Act, will alter current law by 
allowing, if feasible and upon request, the VA to make inscriptions on 
a veteran's headstone or marker regarding their spouse and/or children. 
It would also allow the VA to replace a veteran's headstone or marker 
to add such an inscription if the veteran predeceased their spouse and/
or dependent child and already has a government-issued headstone or 
marker.
    Through American Legion Resolution No. 377: Support for Veterans 
Quality of Life, \4\ we support authorizing the Secretary of VA to add 
an inscription to a government-issued headstone or marker for a 
veteran's eligible spouse and/or children buried in all cemeteries with 
the veteran. This common-sense bill would allow the VA Secretary to 
provide, if feasible and upon request, these inscriptions for 
individuals who died on or after January 1, 2014.
---------------------------------------------------------------------------
    \4\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life

---------------------------------------------------------------------------
    The American Legion supports H.R. 6409.

    H.R. 6420 - To permit the Secretary of Veterans Affairs to 
establish a grant program to conduct cemetery research and produce 
educational materials for the Veterans Legacy Program.
    To permit the Secretary of Veterans Affairs to establish a grant 
program to conduct cemetery research and produce educational materials 
for the Veterans Legacy Program.
    In 2017, the NCA established the Veteran Legacy Program (VLP), a 
grant-based partnership between NCA and academic institutions to 
conduct research on the lives of veterans interred in NCA cemeteries. 
The research illuminates how those buried in NCA cemeteries contributed 
to their country as servicemembers and to their community as veterans. 
VLP makes information available to the public through informative 
materials such as interactive maps to educate the visitors. \5\
---------------------------------------------------------------------------
    \5\ Veteran Legacy Program
---------------------------------------------------------------------------
    There is currently no law that authorizes a grant program to 
conduct cemetery research. H.R. 6420 will permit cemetery research and 
educational materials production, as well as identification of eligible 
recipients including institutions of higher learning, local agencies, 
non-profit organizations, and other eligible recipients as determined 
by the VA secretary. The legislation will also permit the establishment 
of appropriate utilization of funds for research and educational 
material to promote community engagement for Fiscal Year (FY) 2019 
under grant authority. The American Legion supports memorializing those 
who served our great nation.
    Through American Legion Resolution No. 377: Support for Veterans 
Quality of Life, \6\ we support the Secretary of the Department of 
Veterans Affairs in establishing a grant program to conduct cemetery 
research and produce educational materials for the Veteran Legacy 
Program. The American Legion urges Congress and the VA to enact 
legislation and programs within the VA that will enhance, promote, 
restore or preserve benefits for veterans and their dependents, 
including final resting places in national shrines and with lasting 
tributes that commemorates their service.
---------------------------------------------------------------------------
    \6\ The American Legion Resolution No. 377 (2016): Support for 
Veteran Quality of Life

---------------------------------------------------------------------------
    The American Legion supports H.R. 6420.

CONCLUSION

    Chairman Bost, Ranking Member Esty, and distinguished members of 
this veteran-centric committee, The American Legion thanks you for the 
opportunity to elucidate the position of the 2 million veteran members 
of this organization.
    Ensuring those who have selflessly raised their right hand in 
defense of this nation receive the honorable and respectful final 
resting place they deserve is a priority of The American Legion, and by 
action of this Committee, we can see that it is for you as well.
    For additional information regarding this testimony, please contact 
Ms. Lindsay Dearing, Legislative Associate in The American Legion's 
Legislative Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef838b8a8e9d868188af838a88868081c1809d88c1">[email&#160;protected]</a>

                                 <F-dash>
                       Statements For The Record

                       DISABLED AMERICAN VETERANS
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs of the House Veterans' Affairs 
Committee. As you know, DAV is a non-profit veterans service 
organization comprised of more than one million wartime service-
disabled veterans that is dedicated to a single purpose: empowering 
veterans to lead high-quality lives with respect and dignity. DAV is 
pleased to offer our views on the bills under consideration by the 
Subcommittee.

H.R. 4312, the Fallen Warrior Battlefield Cross Memorial Act

    H.R. 4312, the Fallen Warrior Battlefield Cross Memorial Act, would 
prevent the National Cemetery Administration (NCA) from barring the 
display of the Battlefield Cross. The Battlefield Cross is a memorial 
used in wartime to honor a fallen service member consisting of a 
military helmet, pair of boots, and an inverted rifle with the dog tags 
of the fallen hanging from it. Currently, NCA guidelines bar memorials 
that depict ``actual or realistic replicas of ordnance''. In October 
2017, a similar monument was removed from a National Cemetery in Ohio 
but was replaced after the VA determined that its policy was 
misinterpreted.
    DAV does not have a resolution that addresses this issue and takes 
no position on this bill.
    H.R. 6420, to permit the Secretary of Veterans Affairs to establish 
a grant program to conduct cemetery research and produce educational 
materials for the Veterans Legacy Program.
    H.R. 6420 would permit the Secretary to establish a grant program 
with institutions of higher learning to conduct cemetery research and 
produce educational materials for the Veterans Legacy Program (VLP). 
The VLP is NCA's educational outreach initiative whose mission is to 
memorialize our nation's veterans through sharing their personal 
stories and military history. The NCA partners with universities, 
schools, teachers, professors, and students at all levels to research 
veterans interred in NCA cemeteries and learn how they contributed to 
their country and their communities.
    This bill would streamline the funding process for the VLP by 
forgoing the contract process and creating a grant program. Currently, 
the NCA sponsors research for the VLP through federal contract, which 
has a different purpose than a grant. The government uses grants and 
cooperative agreements as a means of assisting researchers in 
developing research for the public good, whereas it uses contracts as a 
means of procuring a service for the benefit of the government. Grants 
are also much more flexible than contracts. Typically in federal 
contracts, changes cannot be made to the scope of work or budget, 
whereas in grants these changes can usually be made with the 
university's approval. Failure to deliver under a federal contract can 
have potential legal or financial consequences to all parties at the 
University, whereas in the case of a grant, typically a final report 
explaining the outcome is sufficient.
    While DAV does not have a resolution specific to this program, we 
support the intent of the program to remember those who have served and 
sacrificed and are laid to rest in our National Cemeteries and 
therefore have no objection to its passage.

H.R. 6409, the Honoring Veterans' Families Act

    H.R. 6409, the Honoring Veterans Families Act, would allow the 
Department of Veterans Affairs to make an inscription on a veteran's 
grave regarding their spouse or dependent child if that veteran is 
buried in a non-VA cemetery. It would also allow the VA to replace a 
veteran's grave marker to add such an inscription if the veteran 
predeceased their spouse or dependent child and already has a marker. 
Current law does not provide for any inscription honoring spouses or 
dependents.
    DAV does not have a resolution that pertains to this issue but we 
would not oppose its passage.
    This concludes my testimony, Mr. Chairman. DAV would be pleased to 
respond for the record to any questions from you or Subcommittee 
Members concerning our views on these bills.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
